N

20-6886
IN THE

SUPREME COURT OP THE UNITED STATES
Court of Appeals Fifth Circuit

Zachary

Mark Enslow
(Your Name)

— PETITIONER

FILED
OCT 2 9 2020

vs,
Washington state et,al.

— RESPONDENT^

ON PETITION FOR A WRIT OF CERTIORARI TO

Ninth circuit Court of Appeals San Francisco California
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Zachary Mark Enslow
(Your Name)
75,NORTH,MANTOR.AVE
(Address)
Titusville ,FL,32796
(City, State, Zip Code)

3213138866

(Phone Number)

Page One

QUESTIONS PRESENTED

These Questions presented for review are very important to my Petition in my case,
Please take the Time to read the Questions carefully. The Questions hold a lot of
Significance in balancing out the scales of Justice in my favor, The Questions hold the
Elements of dividing the unmoral Laws, and unethical Law practices of Washington
And Oregon State, please read carefully Thank You.
QUESTION ONE-WHY IS NO THOROUGH PRE-PRELIMINARY INVESTIGATION
JUSTIFIED, WITH FALSE ARREST ILLEAGAL INCARCERATION PROVING YOUR
INNOSENSE AT JUORY TRIAL, AQUITED ON ALL CHARGES, WITH DUE PROCESS
OF LAW.LEAGAL UNDER THE UNITED STATES CONSTITUTION OF THE UNITED
STATES SUPREME COURT?
QUESTION TWO
WHEN A MAN OR WOMEN IS CONVICTED OF A CRIME HE OR
SHE DID NOT COMITT, WHY SHOULD HE OR SHE SUFFER ILLEAGAL
INCARCERATION, AQUITED OF THE CRIMES WITH OUT DUE COMPENSATION?
INVOKED AMENDMENT FIVE IN THE UNITED STATES CONSTITUTIONAL BILL
OF RIGHTS.
“IS IT TRUE THAT SUPREME COURT MIGHT LISTEN TO MY DISTRICT COURT
AND NINTH CIRCUIT COURT OF APPEALS CASE”?
QUESTION THREE
UNDER THE SUPREME COURT AND THE UNITED STATES
CONSTITUTION IS ILLEAGAL INCARCERATION LEAGAL? INVOKED
AMENDMENTS ONE AND FIVE.
QUESTION FOUR
IN DISTRICT COURT ME NOT SIGHNING AWAY MY SPEEDY
TRIAL RIGHTS. WHY IS IT LEAGAL FOR THE DISTRICT COURT TO NOT HAVE A
SPEEDY TRIAL? INVOKED, AMENDMENT SIX, AND AMENDMENT ONE.
QUESTION FIVE
WHEN MY CASE WENT THROUGH DISTRICT COURT AND
NINTH CIRCUIT COURT OF APPEALS, HOW LONG WILL IT TAKE FOR THE
SUPREME COURT TO KNOW THAT THEY ARE WRONG?

Page Two

Q UESTIONS PRESENTED

QUESTION SIX
WHEN A MAN OR WOMEN EXERCISES HIS OR HER BILL OF CIVIL
RIGHTS, TWENTY-SEVEN AMENDMENTS, AND PROVES HIS OR HER INOSENCE
IN JUORY COURT.WHY IS THAT LEAGAL?
QUESTION SEVEN
IS ILLEAGAL INCARCERATION LEAGAL IN THE SUPREME
COURT, AS IS IN THE BILL OF CIVIL RIGHTS?
QUESTION EIGHT
IS NO PRELIMINARY INVESTIGATION LEAGAL IN THE
SUPREME COURT ALL SO IN THE BILL OF CIVIL RIGHTS?
QUESTION NINE
IS FALSE INPRISONMENT LEAGAL IN THE SUPREME COURT
AS IN THE BILL OF CIVIL RIGHTS EXERCISED?
QUESTION TEN
IS SLANDERING YOUR NAME A CRIME I ULTIMATELY NOT
COMITT LEAGAL IN THE PUBLIC NEWS PAPER, BEFORE BEING AQUITTED ON
ALL CHARGES IN THE SUPREME COURT, AND CIVIL RIGHTS?
QUESTION ELEVEN
IS NOT SIGHNING AWAY YOUR RIGHTS TO A SPEEDY TRIAL
LEAGAL WHEN DISTRICT COURT WOULD NOT LET ME HAVE A SPEEDY TRIAL
ACORDING TO THE RULES OF THE SUPREME COURT?
QUESTION TWELVE
DOES THE SUPREME COURT RULES AND CIVIL RIGHTS
AMENDMENTS EXIST WHEN AN INOCENT MAN OR WOMEN Can’t HAVE JUSTICE
FOR LOWER COURTS MISTAKES?
QUESTION THIRTEEN
CAN THE SUPREME COURT LISTEN TO MY CASE AND
JUSTIFY MY INOSENSE FOR THE STATE POLICE AND PROSICUTERS MISTAKES
AND THE LOWER COURTS MISTAKES?

Page Three

QUESTIONS

PRESENTED

QUESTION FOURTEEN
SINCE I WAS AQUITED ON ALL CHARGES I DID NOT
COMITT DOES SUPREME COURT HAVE THE POWER TO LOOK AT THE FACTS
THAT PROVE MY INNOCENSE?
QUESTION FIFTEEN
DOES SUPREME COURT HAVE THE POWER TO SEE WHERE
DISTRICT COURT AND NINTH CIRCUIT COURT OF APPEALS MADE MISTAKES IN
MY CASE?
QUESTION SIXTEEN
WHEN DISTRICT COURT AND APPELATE COURT MAKE
WRONG DECISIONS IN ONES CASE. DOES SUPREME COURT HAVE THE POWER
TO OVERSEE THEIR MISTAKES?
QUESTION SEVENTEEN
DOES SUPERIOR COURT LISTEN TO NOT GUILTY
PERSONS CASES?
QUESTION EIGHTEEN
WHEN LOWER DISTRICT COURT AND APPELATE COURTS
MAKE BAD MISTAKES IN INNOCENT PEOPLES CASES. CAN SUPREME COURT
HELP?
QUESTION NINETEEN
WHAT JURISDICTION DOES A STATE HAVE ACCUSEING
YOU OF A CRIME, WHEN YOU ARE IN A DIFFERENT STATE AT THE TIME THE
CRIMES WERE COMMITED?
QUESTION TWENTY
DOES SUPREME COURT LISTEN TO INOCENT FALSELY
ACCUSED PEOPLES CASES?

LIST OF PARTIES

[ ] All parties appear in the caption of the ease on the cover page,
M All parties do not appear in the caption of the case on the cover pap. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Oregon State,Washington State,et.al.

l

Page One

TABLE OF CONTENTS TO APPENDIX

2
3

Page One

APPENDIX-A
COURT -NO.15-100181-1
(ORSTD)SUPERIOR COURT OF WASHINGTON
IN AND FOR THURSTON COUNTY
ORDER AND NOTICE SETTING TRIAL DATE OR OTHER
HEARINGS-2/15/2015

4
5
6
7
8
9
10
ll
12
13
14
15
16

Page Two
APPENDIX -B
COURT NO.15-1-00181-1
SUPERIOR COURT OF WASHINGTON STATE
NOTICE OF COMPETENCY HEARING
MARCH/27/2015

17
18
19
20
21
22
23
24
25
26

Page Three
APPENDIX-C
SUPERIOR COURT OF WASHINGTON
FOR THURSTON COUNTY
CASE NO.15-1-00181-1
DATE, APRIL ,23,2015
AGREED ORDER OF CONTINUANCE
(ORCNTST)

27
28

Page Four Through Seven

29
30
31
32
33
34
35
36

APPENDIX-D
CASE NO.319-cv-01794-YY
ORDER TO SHOW CAUSE
DATED-JAN, 18,2020
UNITED STATES DISTRICT COURT
OF OREGON PORTLAND DIVISION
EIGHT PAGES

l

Page Two

TABLE OF CONTENTS TO APPENDIX

2
3

Page Eight

APPENDIX -E
G MAIL FAX
SENT WEDNESDAY, MARCH ,11,2020
FROM TRIAL COURT REPORTER PAM JONES

4
5
6
7
8
9

Page Nine

10
li
12
13
14
15

APPENDIX-F
CASE NO. 316-cv-00708-HZ
DISTRICT OF OREGON FOR THE U.S DISTRICT
DATE-MAY ,20,2016
PLAINTIFF-ZACHARY ENSLOW V, S
DEFENDANT-STATE OF OREGON
SIX PAGES

16
17

Page Ten and Eleven

18
19
20
21
22

APPENDIX -G
CASE NO.15-1-0018
ARREST WARRANT
STATE OF WASHINGTON PLAINTIFF V, S
DEFENDANT ZACHARY ENSLOW
TWO PAGES DATE/FEBUARY/3/2015

23

APPENDIX-H BLANK

24
25
26
27
28

29
30
31
32
33
34
35
36
37
38

Page Twelve

APPENDIX-I
SUPERIOR OF WASHINGTON FOR THURSTON COUNTY
CASE NO.15-1-181-1
STATE OF WASHINGTON PLAINTIFF V, S
ZACHARY MARK ENSLOW DEFENDANT
DATE ,6/11/2015
FINDINGS AND RECOMMENDATIONS
ORDERS AND CONDITIONS OF RELEASE
RELEASED WITHOUT BAIL NO CONDITIONS
ULTIMATE AQUITAL

1

Page Three

TABLE OF CONTENTS TO APPENDIX

2

3

Page Thirteen and Fourteen

APPENDIX-J

4

UNITED STATES DISTRICT COURT WESTERN DISTRICT
OF WASHINGTON AT TACOMA
CASE NO-316-cv-05497-RBL DWC
ORDER GRANTING APPLICATION TO PROCEED IN FORMA
PAUPERIS TWO PAGES DATE 8/9/2016

5
6
7
8
9
10

11

Page Fifteen

12
13
14
15
16

}

APPENDIX-K
CASE NO. 19-36036
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
DATE -FEB/3/2020/
ORDER THAT APPEAL SHOULD GO FORWARD

17

18

Page Sixteen

APPENDIX-L
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
CASE NO. 19-36036
ZACHARY ENSLOW PLAINTIFFV, S STATE OF
WASHINGTON, DEFENDANT
TIME SCHEDULE ORDER
DEC/9/2019/

Page Seventeen

APPENDIX-M
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
ORDER CASE NO. 19-36036
DATE-DEC/11/2019/
FILEING A MOTION TO PROCEED IN FORMA PAUPERIS

19
20
21
22
23
24
25
26

27
28
29
30
31
32

1

Page Four

TABLE OF CONTENTS TO APPENDIX

2

3
4
5
6
7
8
9

Page Eighteen, APPENDIX-N
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
FILED MARCH/30/2020/CASE NO. 19-36036 ORDER
ZACHARY ENSLOW PLAINTIFF V, S STATE OF WASHINGTON
DEFENDANT et, al. ORDER RESPONSE TO THE ORDER TO
SHOW CAUSE.

10

11
12
13
14
15

Page Nineteen, APPENDIX-0
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
CASE NO. 19-36036 DATE, AUGAUST/4/2020/
MOTION FOR RECONSIDERATION (en bank)

16
17

18
19
20
21
22
23
24
25

Page Twenty TO Thirty
APPENDIX-P
UNITED STATES DISTRICT COURT DISTRICT OF OREGON
PORTLAND DIVISION
ZACHARY ENSLOW PLAINTIFF V, S OREGON STATE
DEFENDANT et, al. CASE NO.319-cv-01794-YY
FINDINGS AND RECOMMENDATIONS
TELOPHONIC SHOW CAUSE HEARING

26

27
28
29
30
31
32

Page Thirty-one
APPENDIX-Q
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
DATE -AUGAUST/13/2020/MANDATE
JUDGEMENT OF COURT TAKES EFFECT THIS DATE

l

Page Five

TABLE OF CONTENTS TO APPENDIX

2
3

Page, Thirty-Two

4
5
6
7
8

APPENDIX-R
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
CASE NO. 19-36036
DATE DECEMBER/9/2019
PETITION HAS BEEN RECEIVED BY THE CLERK FOR
THE NINTH CIRCUIT COURT OF APPEALS

9
10
11
12
13
14

Page Thirty-Three APPENDIX-S
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
CASE NO. 19-36036
PETITION FOR REHEARING (EN BANK)
DATE/4/5/2020/

15
16

Page, Thirty-Four

17
18
19
20
21
22
23

Page Thirty-Five

APPENDIX-T
SUPERIOR COURT OF WASHINGTON FOR THURSTON
COUNTY DATED/3/27/2015CASE NO. 15-1-00181-1
RELEASE OF JAIL PROPERTY -ITEM CELL PHONE
REASON -REVIEW OF CELL PHONE RECORDS
APPENDIX-U
CERTIFICATE OF SERVICE STANDARD TORT CLAIM
DATE-4/25/2016/

24
25
26
27
28
29

Page Thirty-Six THROUGH Sixty-Two
APPENDIX-V
NINTH CIRCUIT APPELATE COURT -OPENING BRIEF
CASE NO. 19-36036 DISTRICT COURT
N0.319-cv-05650RBL DATE 2/9/2020

l

Page Six

TABLE OF CONTENTS TO APPENDIX

2

3
4
5
6
7
8
9
10

Page Sixty-Three THROUGH Sixty-Five
APPENDIX-W
CASE NAME, ZACHARY ENSLOW PLAINTIFF V, S
WASHINGTON STATE, DEFENDANT et, al.
CASE NO. 19-36036 DISTRICT COURT NO.
319-cv-05650RBL
PETITION FOR REHEARING (en bank) 3 PAGES
DATE -AU GAUST/4/2020/

11
12
13
14
15
16
17
18

Page Sixty-Six THROUGH Sixty-Seven
APPENDIX-X
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK, WASHINGTON, DC.
DATE OF ENTRY NOVEMBER/9/2020/
ENSLOW V, S WASHINGTON et, al. (USCA9)
CASE NO. 19-36036 CORRECT AND RESUBMIT

19

20
21
22
23
24

Page Sixty-Eight THROUGH Seventy
APPENDIX-Y
UNITED STATES DISTRICT COURT DISTRICT OF
OREGON
CASE N0.318-cv-00142MC ORDER FILED 2/06/2018/

25

26
27
28
29
30

Page Seventy Through Seventy-Three
APPENDIX-Z
UNITED STATES DISTRICT COURT DISTRICT OF
OREGON CASE N0.318-cv-00713-MC ORDER
CASE N0.318-cv-00713-MC ORDER FILED 5/8/2018/

l

Page Seven

TABLE OF CONTENTS TO APPENDIX

2
3

4
5
6
7
8
9
10

Page Seventy-Four
APPENDIX-NEXT
ORDERS AND MOTIONS
CASE NO.316-cv-05497RBL-DWC
ENSLOW V, S STATE OF WASHINGTON et, al.
GRANTING MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS

11

12
13
14
15
16
17
18

Page Seventy-Five
APPENDIX-NEXT
IN THE CIRCUIT COURT OF THE STATE OF OREGON FOR
MULTNOMAH COUNTY
PLAINTIFF STATE OF OREGON V.S ZACHARY ENSLOW
DEFENDANT.et, al. COURT NO. 15-EX-00053
DA CASE 2313439-1 DATE FEBUARY/5/2015/

19

20
21
22
23
24

Page Seventy-Six
APPENDIX-NEXT
IN THE CIRCUIT COURT OF THE STATE OF OREGON
FOR MULTNOMAH COUNTY FILED FEBUARY /5/2015/
WAIVER OF EXTRADITION

25

26
27
28
29
30
31

Page Seventy-Seven
APPENDIX-NEXT
IN THE CIRCUIT COURT OF THE STATE OF OREGON FOR
MULTNOMAH COUNTY, PLAINTIFF THE STATE OF OREGON
V, S DEFENDANT ZACHARY ENSLOW
JUDGEMENT OF DIMISSAL DATE FEBUARY/13/2015/

32

33
34
35

Page Seventy-Eight
APPENDIX-NEXT
YOUR RIGHTS AS an ALLEGED FUGITIVE

l

Page Eight

TABLE OF CONTENTS TO APPENDIX

2

3
4
5
6
7

Page Seventy-Nine THROUGH Eighty-one
APPENDIX NEXT
CLAIM FOR DAMAGES
THURSTON COUNTY, WASHINGTON
DATED,7/1/2015

l
2

Page One

TABLE OF AUTHORITIES CITED
CASE STATUTE AND RULES

3

4

PAGE ONE THROUGH FOUR IS EXPLANATION OF CIVIL CASE.

5

6

PAGE FOUR-APPENDIX-A COURT NO. 15-1-00181-1 (ORSTD)

7

PAGE FIVE- INVOKED RATIFIED, AMENDMENT, SIX

8

PAGE SIX- EXPLANATION OF MY CIVIL CASE THAT GIVES MY CASE MERITT

9

PAGE SEVEN -APPENDIX-B COURT NO. 15-1-00181-1, NOTICE OF COMPETENCY

10

HEARING.INVOKED-AMENDMENT SIX

ll

PAGE EIGHT-INVOKED AMENDMENT FIVE

12

PAGE NINE -CASE NO.15-1-00181-1NOTICE OF HEARING COMPETENCY HEARING

13
14

WASHINGTON STATE THURSTON COUNTY PROSICUTER ILLEAGALY CROSSED
OUT ZACHARY ENSLOWS CIVIL RIGHTS STATED ON COURT PAPER WORK.

15
16

PAGE TEN-CASE NO.15-l-00181-l(ORCNTST)PAGE TEN DESCRIPTION OF
VIOLATION OF AMENDMENT SIX.

17

PAGE ELEVEN-DESCRIBES PAGE FOUR THROUGH PAGE TEN

18

ELEMENTS OF UNMORAL LAW PRACTICES.

19

PAGE TWELVE-ASKING TO REVIEW OF MY WRIT OF CERTIORARI PETITION

20

ON THE BASIS OF UNLAWFULL LAW PRACTICES.

21

PAGE THIRTEEN-APPENDIX -D CASENO.319-cv-01794-YY

22

ORDER TO SHOW CAUSE-INVOKEING AMENDMENT ONE

23

PAGE FOURTEEN-REFERENCE TO APPENDIX D-DISCUTION TO STATE A CLAIM.

24

PAGE FOURTEEN-APPENDIX E-ATTEMPT TO RETRIEVE TRIAL TRANSCRIPTS.

25

PAGE FIFTEEN-APPENDIX -F CASE NO.316-cv-00708-HZ SEEKING MONETARY

26

RELIEF FROM THURSTON COUNTY WASHINGTON PROSICUTER

27
28

PAGE SIXTEEN-INVOKEING AMENDMENTS 4,5,6,7,8,9, AS WELL AS AMENDMENT
11, SECTION ONE FOR VIOLATION OF CICIL RIGHTS.

29
30
31

PAGE SEVENTEEN-APPENDIX-H ASKING HONORABLE MAGISTRATE JUDGES
TOREVTEW MY NINTH CIRCUIT APPELATE OPENING BRIEF FOR VIOLATION OF
4,5,6,9,10, AMENDMENT INVOKED.

1

Page Eighteen

2
3
4
5
6
7
8

9
10
11
12

i

13

14
15
16
17
18
19
20
21

APPENDIX NEXT -APPENDIX I
Superior Court of Washington, Thurston County,
State of Washington Plaintiff V, s Zachary Mark Enslow Defendant
Trial paper work Decision of State Trial Court
Jurisdiction Dated-6-11-2015
Findings and recommendations Orders and Conditions of Release
CAUSE NO. 15-1-181-1 Released with out bail -Bond no Conditions
Jurisdiction Dated-6/11/2015

22

23
24
25
26
27
28

APPENDIX NEXT-APPENDIX J
United States District Court, Western District of Washington At Tacoma
Zachary Mark Enslow Plaintiff V, s State of Washington Thurston County et, al.
Findings and Recommendations Case No.316-cv-05497-RBL -DWC
Order and Recommendations, Application to Proceed in Forma Pauperis
Jurisdiction Dated-8/9/2016

29

30
31
32
33
34
35
36

APPENDIX NEXT -APPENDIX K
U.S Court of Appeals for the Ninth Circuit
Zachary Mark EnslowPlaintiff V, s State of Washington Defendant et, al.
Jurisdiction Dated-February,3,2020,
Order-That Appeal should go forward
Case No. 19-36036

1

Page Nineteen

2
3
4
5
6
7
8
9
10
11
12
13

14
15
16
17
18
19

APPENDIX NEXT -APPENDIX -L
United States Court of Appeals for the Ninth Circuit
Zachary Mark Enslow Plaintiff V, s State of Washington Defendant et, al.
Case No. 19-36036
Time schedule Order
Jurisdiction Dated-December,09,2019,

20

21
22
23
24
25
26

APPENDIX NEXT-APPENDIX -M
The United States Court of Appeals for the Ninth Circuit
Zachary Mark Enslow PlaintiffV, s State of Washington Defendants et, al.
Case No. 19-36036
ORDER
Jurisdiction Dated-Filed-December, 11,2019
Fileing a motion to proceed in forma pauperis

27

28
29
30
31
32
33

APPENDIX NEXT-APPENDIX-N
United States Court of Appeals for the Ninth Circuit
Zachary Mark Enslow PlaintiffV, s State of Washington Defendants et, al
Case No. 19-36036 ORDER
Jurisdiction Filed-February,3,2020,
Fileing a statement explaining why the Appeal is not Frivolous, and should go Forward.

34
35
36
37
38

fT*

l

Page Twenty

2
3
4
5
6
7
8

9
10
11
12

13
14
15
16
17

APPENDIX NEXT-APPENDIX -O
United States Court of Appeals for the Ninth Circuit
Zachary Mark Enslow Plaintiff V, S State of Washington Defendants et, al.
Case No. 19-36036
Jurisdiction Dated -March,30,2020, ORDER response to the order to show cause.

18

19
20
21
22
23

APPENDIX NEXT-APPENDIX-P
United States Court of Appeals for the Ninth Circuit
Plaintiff
Zachary Mark Enslow V, s Washington State Defendants et al.
Case No. 19-36036 Jurisdiction Dated-Augaust,4,2020, ORDER
The motion for reconsideration (en bank) is denied on behalf of the court.

24

25
26
27
28
29

APPENDIX NEXT-APPENDIX-Q
U.S District Court District of Oregon Portland Division Case No.319-cv-01794-YY
Findings and recommendations, Telephonic show cause hearing, same case, asking for
review of same issues as WA. Trial and Appeal Case same Questions presented as in both
states Washington and Oregon. Only on a telephone.

30

31
32
33
34
35
36
37
38

APPENDIX NEXT-APPENDIX-R
United States Court of Appeals for the Ninth Circuit
Zachary Mark Enslow Plaintiff V, s Washington State Defendants et, al.
Case No. 19-36036
Jurisdiction dated-Augaust, 13,2020
MANDATE
Judgement of the court entered March,30,2020, Takes effect this date

1

Page Twenty-One

2
3
4
5
6 :
»

7 1

I
8 *
9 l
f
10 ‘
!■

11 <
12

13
14
15
16
17
18

___

APPENDIX NEXT-APPENDIX-S
United States Court of Appeals for the Ninth Circuit
Jurisdiction Dated-Dec,09,2019, Case No. 19-36036
District Court No.319-cv-05650-RBL
Title Zachary Mark Enslow Plaintiff V, s Washington State Defendants, et, al.
Petition has been received by the Clerk for the Ninth Circuit Court of Appeals.

19

20
21
22
23

APPENDIX NEXT-APPENDIX-T
United States Court of Appeals for the Ninth Circuit
Certificate of compliance for Petitioners for rehearing or answers
9th Circuit Case No. 19-36036 Petition for rehearing (en banc) Date 4/5/2020

24

25
26
27
28
29

APPENDIX NEXT-APPENDIX-U
Superior Court of Washington for Thurston County
State of Washington Plaintiff V, S Zachary Enslow Defendant Case No. 15-1-00181-1
Criminal Notice of Hearing Release of Jail Property Item Cell Phone, Look at Cell Phone
Records, Jurisdiction Dated-3/27/2015/

30

31
32

APPENDIX NEXT-APPENDIX-V
Certificate of Service, Standard Tort Claim -Date-4/25/2016

33

34
35
36
37

APPENDIX NEXT-APPENDIX-W
Ninth Circuit Appellate Court, Opening Brief
Case No. 19-36036 District Court No.319-cv-05650-RBL
Date-2/9/2020

38
"f*

39

l

Page Twenty-Two

2
3
4
5
6
7
8

9
10
11
12

13

APPENDIX NEXT-APPENDIX -X

14

15
16
17
18

Case Name - Plaintiff
Zachary Mark EnslowV, SState of Washington Defendantset,
al
Case No. 19-36036 District Court No.319-cv-05650-RBL
Petition for Rehearing (en banc) Jurisdiction Dated-Augaust, /4/2020/

19

20
21
22
23

APPENDIX NEXT-APPENDIX-Y
Supreme Court of The United States Office of The Clerk, Washington DC.
Date of Entry, November /09/2020 RE: EnslowV, s Washington et, al. USCA9
Case No. 19-36036 Correct and Resubmit

24

25
26
27
28
29

APPENDIX NEXT-APPENDIX-Z
United States District Court District of Oregon
Case No.3:18-cv-00142-MC
Zachary Enslow Plaintiff V, S Oregon State Defendant ORDER
Jurisdiction Filed-02/06/18/

30

31
32
33
34
35

APPENDIX NEXTUnited States District Court, District of Oregon
Case No.3:18-cv-00713-MC
Zachary Enslow Plaintiff V, S Oregon State Defendants et, al. ORDER
Jurisdiction Filed -05/08/18

36

■f •'

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

1X3 For eases from federal courts:
The opinion of the United States court of appeals appears at Appendix N/O
the petition and is
[ ] reported at
\or,
1X3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix 1
the petition and is
[ ] reported at
;or,
K1 has been designated for publication but is not yet reported; or,
C ] is unpublished.
1X1 For eases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix P
to the petition and is
C ] reported at
; or,
1X1 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the __
court
appears at Appendix
to the petition and is
[ ] reported at _____
-i or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION

1X3 For oases from federal courts:
The date on which the United States Court of Appeals dedded my ease
was 3/30/2020/
[ ] No petition for rehearing was timely filed in my case.
IX] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 8/4/2020
. and a eopy of the
order denying rehearing appears at Appendix JO
IX! An extension of time to file the petition for a writ of certiorari was granted
to and induding NOVEMBER
(date) on 09/2021/
(date)
in Application No. 19 a 36036 .
The jurisdiction of this Court is invoked under 18 U. S. C, § 1254(1),

1X3 For cases from state courts:
The date on which the highest state court dedded my case was 06/11/2015
A copy of that dedsion appears at Appendix 1
X] A timely petition for rehearing was thereafter denied on the following date:
03/30/2020/
, and a eopy of the order denying rehearing
appears at Appendix N
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)in
Application No. _A
The jurisdiction of this Court is invoked under 28 U, S. C. § 1257(a).

CONSTITUTIONAL AND STATUTARY PROVISIONS INVOLVED
PAGE 5 INVOKED INVOKED AMENDMENT 6 REFERENCE PAGE 27

PAGE 7 INVOKED AMENDMENT 6REFERENCE PAGE 27

OAGE 10 DISCRETION OF AMENDMENT 6 FOUND AT PAGE 27

PAGE 13 INVOKED AMENDMENT 1 FOUND AT PAGE 27

PAGE 16 INVOKED AMENDMENTS 4,5,6,7, REFERENCE FOUND AT PAGE 28

AMENDMENTS 8,9 ARE FOUND AT PAGE 28

AMENDMENT 11 IS FOUND WITH SECTION ONE AT Page 29 at the back of the petition

Page 17 amendments 4,5,6 are found on page 27 amendments 9,10 are found at page 28

I
J

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

STATEMENT OF THE CASE
THE CASE FROM THE BEGINING OF MY FALSE ARREST AND ILLEAGAL INCARCERATION TO
PROOVEING MY INNOCENSE AT JUORY TRIAL AND PRESENTING MY OPENING BRIEFS AT
APPELATE COURT,ALL THE FACTS AND PROOFE LAY IN THE QUESTIONS I HAVE FOR
PRESENTATION TO PROOVE TO THE COURT,FROM BEING FALSELY ACCUSED,TO BEING
ILLEAGALLY INCARCERATED ,TO PROOVEING MY INNOCENSE AT JUORY TRIAL,TO BEING
ABLE TO START MY CIVIL RIGHTS TORT CLAIM THESE ARE THE RELEVANT FACTS THAT
GIVE MY CIVIL RIGHTS CASE MERITT.THANK YOU FOR TAKEING THE TIME TO LISTEN TO
MY CASE.

REASONS FOR GRANTING THE PETITION
MANY COMPELLING REASONS EXIST FOR THE DISCRETIONARY JURISDICTION OF MY CIVIL
RIGHTS CASE AND THAT IS NO BUT FOR I DONT HAVE A LOT OF TIME TO FINISH.IM
RUNING OUT OF TIME YOU SHOULD GRANT CERTIOARI FOR THE FACT MY CASE HAS
MERITT AND TEN PERCENT OF LAW ENFORCEMENT IS CORRUPT THE TEN PERCENT OF
LAW ENFORCEMENT THAT ACCUSED ME OF CRIMES I DID NOT COMITT IS THE TEN
PERCENT THAT IS CORRUPT IM ASKING YOU TO PLEASE TAKE THE TIME TO READ MY
CASE AND READ MY OPENING APPELATE BRIEFS I DID NOT COMITT THE CRIMES I WAS
ACCUSED OF PLEASE READ IN TO MY CASE AND BRIEFS IT WOULD BE A NATIONAL
IMPORTANCE TO THE UNITED STATES AND TO THE PUBLIC ON THE TRUE FACTS OF
ILLEAGAL INCARCERATION THAT HAPPENED TO ME ZACHARY MARK ENSLOW.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submi t
ZjzchaOj f/lari Enslow

Date: 01/08/2021

V«iH*atoy?BPPiner;
0i/08/2021

.

